k'

'V- :

FILED: April 6,-2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7633
(1:18-cv-00345-CCE-JEP)

MICHAEL M. WILLIAMS
Petitioner - Appellant
v.
JOSH STEIN
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S’ CONNOR, CLERK

APPENDIX A

'■"TT ''-t' -"-"-'rr "■

.....

' t.

&

2’-. •
- i'-

FILED: April 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7633
(1:18-cv-00345-CCE-JEP)

MICHAEL M. WILLIAMS
Petitioner - Appellant
v.
JOSH STEIN
Respondent - Appellee

MANDATE
The judgment of this court, entered April 6, 2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor, Clerk

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
»!

MICHAEL M. WILLIAMS,
Petitioner,
v.
JOSH STEIN,
Respondent.

)
)
)
)
)
)
)
)

L18-CV-345

ORDER AND JUDGMENT
On July 2, 2019, the United States Magistrate Judge filed a Recommendation and
notice was served on the parties pursuant to 28 U.S.C. § 636. Petitioner timely filed
objections, Doc. 21, which the Court has reviewed de novo.
In the main, Mr. Williams disputes the Magistrate Judge’s conclusion that he has
provided insufficient evidence of actual innocence to overcome the time bar. He relies
on his own protestations of innocence, which are insufficient to meet his burden, and on a
statement by the victim’s mother to law enforcement that he was not present during the
shooting that underlies his state convictions. While he does not direct the Court’s
attention to the place in the record where this information can be found, the Court located
what appears to be the relevant police report, Doc. 1-2 pp. 28- 32, and has reviewed it. In
that report, however, the victim’s mother is quoted only as saying that Mr. Williams did
not have a gun; she does not say that Mr. Williams was not there. See Doc. 1-2 at 30.
Numerous other witnesses quoted in the report linked Mr. Williams to the shooting. The
Court agrees with the Magistrate Judge that Mr. Williams has not plausibly established
actual innocence sufficient to overcome the time bar.

APPENDIX I!

w

■'»

Otherwise, Mr. Williams’ objections either concern matters other than the relevant
legal issues or do not undermine the Magistrate Judge’s analysis. The United States
Magistrate Judge’s Recommendation, Doc. 17, is affirmed and adopted.
IT IS THEREFORE ORDERED AND ADJUDGED that Respondent’s Motion
for Summary Judgment, Doc. 8, is GRANTED, the Habeas Petition, Doc. 1, is
DENIED, and this action is DISMISSED.
IT IS FURTHER ORDERED that, finding no substantial issue for appeal
concerning the denial of a constitutional right affecting the conviction, nor a debatable
procedural ruling, a certificate of appealability is DENIED.
This, the 10th day of September, 2019.

UNITED STATES D

CT JUDGE

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
MICHAEL M. WILLIAMS,
Petitioner,

)
)
)
)

v.

)

Respondent.

)
)
)
)

JOSH STEIN,

L18CV345

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

Petitioner Michael M. Williams, a prisoner of the State of North Carolina, brings a
Petition [Doc. #1] seeking a writ of habeas corpus pursuant to 28 U.S.C. § 2254.

The

documents attached to the Petition reveal that, on May 7, 2001, Petitioner pled guilty in the
Superior Court of Scotland County to one count of assault with a deadly weapon with intent
to kill inflicting serious injury (AWDWIKISI), two counts of robbery with a dangerous
weapon, two counts of first-degree kidnapping, one count of assault with a deadly weapon
inflicting serious injury (AWDWISI) and one count of discharging a firearm into occupied
property in cases 00 CRS 221-227. According to the exact terms of his plea agreement,
Petitioner received a term of 109 to 140 months of imprisonment for the AWDWIKISI,
robbery, and kidnapping convictions plus two consecutive terms of 27 to 40 months of
imprisonment for the AWDWISI and discharging a firearm into occupied property
convictions in judgments entered on May 8, 2001. After the North Carolina Department of
Corrections noticed in June and July of 2001 that the 40-month maximum sentence for
Petitioner’s shorter sentences was not the correct corresponding maximum sentence for the

Case l:18-cv-00345-CCE-JEP Document 17 Filed 07/02/19 Page 1 of 9

Claims
Petitioner raises four claims for relief. In the first claim, he contends that the State
violated his due process rights by denying him a preliminary hearing, effective assistance of
counsel, a competency evaluation, a continuance, credible grand jury proceedings, and the
right to be heard. (Petition § 12(a), Ground One.) In the second, he argues that his rights
under the Confrontation Clause of the United States Constitution were violated because he
never had a chance to face his accusers concerning whether or not he ever possessed a pistol.
(Id.. Ground Two.) Petitioner’s third claim asserts that the trial counsel provided ineffective
assistance. (Id.. Ground Three.) Finally, Petitioner’s fourth claim argues that North Carolina’s
appellate courts have stated that they follow precedent and that doing so somehow violated
Petitioner’s equal protection rights. He adds that proper findings of facts and conclusions of
law were not made in his case. (Id- Ground Four.)
Discussion
Respondent’s Motion for Summary Judgment argues that Petitioner’s claims are
meritless, but also challenges the Petition on the ground that Petitioner filed it outside of the
one-year limitation period, 28 U.S.C. § 2244(d)(1). In order to assess Respondent’s statute of
limitation argument, the Court first must determine when Petitioner’s one-year period to file
his § 2254 Petition commenced. In this regard, the United States Court of Appeals for the
Fourth Circuit has explained that:
Under § 2244(d)(1) (A)-(D), the one-year limitation period begins to run from
the latest of several potential starting dates:
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;

3

Case l:18-cv-00345-CCE-JEP Document 17 Filed 07/02/19 Page 3 of 9

his MAR in 2012, or well after the deadline to file in this Court already passed.1 State filings
made after the federal limitations period expires do not restart or revive the filing period. See
Minter v. Beck. 230 F.3d 663, 665 (4th Cir. 2000). Therefore, Petitioner’s claims at to his
AWDWIKISI, robbery, and kidnapping convictions are not timely under subparagraph (A).
Petitioner’s convictions for AWDWISI and discharging a weapon into occupied
property operate on a different time line because Petitioner succeeded in obtaining relief
through his MAR as to these convictions and that relief resulted in amended judgments being
entered on March 20, 2013. Petitioner again did not file a direct appeal, so his time to file in
this Court began to run under subparagraph (A), at the latest, on April 3, 2013, and expired a
year later on April 3, 2014 without any filing in this Court or any further filings in the state
courts. Again, Petitioner attempted later filings in 2015, but these cannot restart his filing
period in this Court.
Petitioner does not make any arguments that subparagraphs (B), (C), or (D) apply.
Therefore, his Petition is untimely. However, in both his Petition and his Response Brief
[Doc. #15] to Respondent’s Motions, Petitioner asserts that the Court should hear his claims
despite his untimeliness for two reasons,

First, in the Petition, Petitioner points to a

psychological evaluation conducted five years before his 2001 guilty plea which shows that he
was far behind in reading and arithmetic and that he had an IQ of 69, which placed him
between borderline intellectual functioning and mild retardation.

This is a request for

1 The Court notes that Petitioner contends that he requested a transcript from the state court and indicated an
intent to file an MAR in a state court filing in November 2009. However, even if this Court treated the
November 2009 filing as a request for collateral review, Petitioner’s deadline for filing in this Court had still
expired years earlier.

5

Case l:18-cv-00345-CCE-JEP Document 17 Filed 07/02/19 Page 5 of 9

In Petitioner’s Response (Doc. #15], Petitioner also makes a reference to “actual
innocence” and may be contending that the statute of limitations should not bar his claim
because he is actually innocent of the crimes to which he pled guilty. The United States
Supreme Court has held that a claim of actual innocence can act as a “gateway” to allow an
otherwise procedurally defaulted or time-barred claim to be heard. McOuiggin v. Perkins. 596
U.S. 383, 393 (2013) (“We have not resolved whether a prisoner may be entitled to habeas
relief based on a freestanding claim of actual innocence. We have recognized, however, that
a prisoner ‘otherwise subject to defenses of abusive or successive use of the writ [of habeas
corpus] may have his federal constitutional claim considered on the merits if he makes a proper
showing of actual innocence.’ In other words, a credible showing of actual innocence may
allow a prisoner to pursue his constitutional claims (here, ineffective assistance of counsel) on
the merits notwithstanding the existence of a procedural bar to relief.” (internal citations
omitted)). To demonstrate actual innocence, “a petitioner must show that it is more likely
than not that no reasonable juror would have found petitioner guilty beyond a reasonable
doubt” in tight of the new evidence. Schlup v. Delo. 513 U.S. 298, 327 (1995): see McOuiggin.
569 U.S. at 399. “To be credible, such a claim requires petitioner to support his allegations of
constitutional error with new reliable evidence—whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence—that was not presented at trial.”
Schlup. 513 U.S. at 324.
In this case, Petitioner’s presentation falls short of the showing needed to establish his
actual innocence and allow the Court to hear his time-barred claims.

In his Response,

Petitioner makes only a conclusory statement alleging that “actual innocence bypasses all

7

Case l:18-cv-00345-CCE-JEP Document 17 Filed 07/02/19 Page 7 of 9

guilty fell below a reasonable standard of defense counsel, given the Government’s evidence
in the record and given the substantially reduced sentence offered under the plea.3 Similarly,
to the extent Petitioner claims ineffective assistance of counsel at the 2013 resentencing,
Petitioner has not shown how his attorney’s agreement to correct the sentence by reducing
the sentence to below that reflected in the plea agreement fell below a reasonable standard for
defense counsel. Ultimately, the state courts rejected Petitioner’s claims, including the claims
of ineffective assistance of counsel, and Petitioner has not shown that this determination is
contrary to or an unreasonable application of federal law. See Harrington v. Richter. 562 U.S.
86 (2011); see also MAR Transcript [Doc. #1-2 at 43, 45-46, 49-50] (rejecting claims of
ineffective assistance in connection with plea). Finally, to the extent Petitioner raises claims
related to the manner in which the state courts handled his post-conviction Motions for
Appropriate Relief, alleged errors in the post-conviction process are not cognizable in this
case, and Petitioner has failed to allege any constitutional violation in that process in any event.
IT IS THEREFORE RECOMMENDED that Respondent’s Motion for Summary
Judgment [Doc. #8] be granted, that the Habeas Petition [Doc. #1] be dismissed, and that this
action be dismissed.
This, the 2nd day of July, 2019.
/s / Joi Elizabeth Peake
United States Magistrate Judge

3 There is no indication that the Government withheld any evidence or that a sufficient basis did not exist to
support the plea.

9

Case l:18-cv-00345-CCE-JEP Document 17 Filed 07/02/19 Page 9 of 9

Additional material
/

from this filing is
available in the
Clerk's Office.

